      Department of Homeland Security





         Erie County, New York, Generally Followed 

      Regulations for Spending Public Assistance Grant 

             Funds for Flooding in August 2009 





OIG-13-25                                       January 2013

                                    OFFICE OF INSPECTOR GENERAL
                                         ikpartment ofIIomdan(i Stxurily



                                                JAN 2. 9 2013



MEMORANDUM FOR:
                                                                     Region



FROM:
                                          i
                                      Office of

SUBJECT:                              Erie County, New York, Generally Followed Regulations for
                                      Spending Public Anistance Grant Funds for Flooding in
                                      August 2009
                                      Audit Report Number OIG-13-2S

We ~udited Public Assistance (PA) funds awarded to the Erie County (County), New York
(Public Assistance Identification Number 029-99029-00). Our audit objective was to determine
whether the County accounted for Jnd expended Federal Emergency ManJgement Agency
(FEMA) gr~nt funds accordin g to Federal regu lation5 ~nd FEMA guidelines.

The New York State Divi5ion of Homeland Security and Emergency Services (HSES), a FEMA
grantee, ~warded the County $10.2 mi llion f or damJge5 cau~ed bv he~vy r~ins in August 2009.
The award provided 75 percent FEMA fundi ng for 28 large and 177 small projects.' The ~udit
covered the period August 8, 2009, through August 17, 2012, and included a review of 11
large project5 tot~ling less than $1.5 million, or less th~n 15 percent of t he total award (see
Exhibit A, Schedule of Project~ Audited)_ As of the cutoff date of our audit, none of the I~ rge
projects that we reviewed were closed.

We conducted thi5 performance ~udit between February ~nd August 2012 pursu~nt to the
Inspector General Act of 1978, as amended, and ~ccording to generally accepted government
auditing standards_ The~e standards require that we plan and perform the ~udit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and condu5ion~
b~sed upon our audit objective. We believe th~t the evidence obtained provides a
reasonable basi5 for our findings and conclusions based upon our ~udit objective We
conducted this audit u5ing the statutes, regulations, and FEMA policies and gui delines in
effect ~t the time of the disaster.




'Federa l reEu lation, in effect ot th" time 01 Ihe di""'ler set tr.e IMp,e project thr.,hold at $6~ ,lOO
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


We interviewed FEMA, HSES, and County officials; reviewed judgmentally selected
project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of
the County’s internal controls applicable to grant activities because it was not necessary
to accomplish our audit objective. We did, however, gain an understanding of the
County’s method of accounting for disaster-related costs and its procurement policies
and procedures.

                                    RESULTS OF AUDIT

The County accounted for grant funds on a project-by-project basis as required and
followed spending regulations. However, we did determine that FEMA should
deobligate and put to better use $73,251 of unused Federal funds that exceed the
amount the County spent. In addition, we found $13,567 in unsupported costs.

Finding A: Unused Federal Funds

The County spent $73,251 less than the amount authorized on three completed projects
(see table 1). Even though the County has not submitted its final claim, FEMA should
deobligate and put to better use the $73,251. FEMA approved the projects based on
estimates.

                  Table 1. Estimated and Actual Project Costs
                     Project      Amount       Actual        Amount
                    Number       Estimated      Costs      Questioned
                       264        $ 143,305 $ 122,319          $ 20,986
                       265          115,333      63,989          51,344
                      1195          128,281     127,360             921
                                                               $ 73,251

County Response. County officials agree with this finding. The actual costs (as shown in
table 1) will be used by the County to close those projects.

Finding B: Ineligible Costs

Of the County’s $13,567 in direct administrative costs, we question $13,567 as being
unsupported (see table 2).




www.oig.dhs.gov                              2                                   OIG-13-25
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


                      Table 2. Ineligible Costs

                       Project Number Amount Ineligible
                              266                $ 995
                              326                  8,227
                              491                  1,534
                              632                  2,811
                                                 $13,567

We reviewed individual handwritten time records that the County used as support for
its direct administrative costs. During our review, we noted a great similarity in
signatures. We determined that a clerk had completed the time records and signed for
the employees, but did not have any documentation for the time being recorded. No
notations on the time records being submitted for reimbursement signified that the
signatures were not authentic. The County could not provide any alternative
documentation for the time that was claimed. Thus, we question $13,567 for direct
administrative costs claimed as inadequately supported, and we referred this manner to
our Office of Investigations for further review.

County Response. County officials agree with this finding.


                                 RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region II:

Recommendation #1: Deobligate $73,251 (Federal share $54,938) as unneeded project
funding. (See exhibit A.)

Recommendation #2: Disallow $13,567 (Federal share $10,175) as unsupported costs.
(See exhibit A .)


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with County officials and included their comments
in this report, as appropriate. We held an exit conference with the County on August
17, 2012.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to

www.oig.dhs.gov                            3                                  OIG-13-25
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendation will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report were Kaye McTighe, Division Director; Trudi Powell,
Audit Manager; and Ken Valrance, Senior Auditor.

Please call with any questions, or your staff may contact John Kelly, Deputy Assistant
Inspector General at (202) 254-4100.




www.oig.dhs.gov                             4                                   OIG-13-25
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



                                                                           EXHIBIT A
                               Schedule of Projects Audited

                                  Erie County, New York

                            FEMA Disaster Number 1857-DR-NY


                                          Unused                   Total
                  Project       Award      Funds                 Questioned
                  Number       Amount    Finding A Finding B       Costs
                    264       $ 143,305 $ 20,986                   $ 20,986
                    265          115,333    51,344                   51,344
                    266           70,367              $ 995              995
                    326          415,976               8,227           8,227
                    344           91,136                                   0
                    347           94,568                                   0
                    491           76,605               1,534           1,534
                    632          167,040               2,811           2,811
                    814           80,355                                   0
                    815           75,357                                   0
                   1195          128,281       921                       921
                   Totals     $1,458,323 $ 73,251    $13,567        $86,818




www.oig.dhs.gov                            5                                   OIG-13-25
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix A
Report Distribution
Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region II
Audit Liaison, FEMA (Job Code G-12-016)

Grantee

Director, New York State Division of Homeland Security and Emergency Services
Deputy Comptroller for local Government and School Accountability, New York State
    Division of Homeland Security and Emergency Services

Subgrantee

Erie County, New York




www.oig.dhs.gov                          6                                  OIG-13-25
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
